HHS/OIG, Audit - "Medical Assistance Provided by Pennsylvania to
Hurricane Katrina Evacuees," (A-03-07-00210)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medical
Assistance Provided by Pennsylvania to Hurricane Katrina Evacuees," (A-03-07-00210)
July 14, 2008
Complete
Text of Report is available in PDF format (675 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the $1.4 million that Pennsylvania claimed for services
provided to Hurricane Katrina evacuees as of March 31, 2007, $552,000 did not
comply with the States approved hurricane-related section 1115 demonstration
project.  Under section 1115 of the Social Security Act, the State was allowed
to provide the benefits included in its State Medicaid plan to eligible
Hurricane Katrina evacuees for a maximum of 5 months.  The $552,000 included
costs for services provided to individuals after their eligibility periods had
expired and costs that were not supported by actual recorded expenditures.
We recommended that the State refund $552,000 in unallowable reimbursement and
revise its waiver reports for Alabama, Louisiana, and Mississippi by our audit
adjustment amounts.  The State agreed with our recommendation.